Office of Material Loss Reviews
Report No. MLR-10-021


Material Loss Review of Mutual Bank,
Harvey, Illinois




                                  February 2010
                                      Executive Summary

                                      Material Loss Review of Mutual Bank, Harvey,
                                      Illinois
                                                                                       Report No. MLR-10-021
                                                                                               February 2010

Why We Did The Audit

On July 31, 2009, the Illinois Department of Financial and Professional Regulation (IDFPR) closed
Mutual Bank and named the FDIC as receiver. On August 28, 2009, the FDIC notified the OIG that
Mutual Bank’s total assets at closing were $1.7 billion and the estimated material loss to the Deposit
Insurance Fund (DIF) was $693.8 million. As of December 31, 2009, the estimated loss had decreased to
$656.2 million. As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the OIG
conducted a material loss review of the failure of Mutual Bank.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.

Background

Mutual Bank was a state-chartered, nonmember bank established by the IDFPR and insured by the FDIC
effective December 15, 1962. Mutual Bank was a minority depository institution, with its main office
located in Harvey, Illinois, a suburb of Chicago. The bank maintained 10 branches in Illinois, and one
branch each in New York, New Jersey, and Texas. The institution also operated a small trust department.
The bank specialized in residential and commercial real estate (CRE) loans, including acquisition,
development, and construction (ADC) loans. Mutual Bank was a wholly-owned subsidiary of First
Mutual Bancorp of Illinois, Inc., a one-bank holding company. The Chairman of the bank and his family
controlled 95 percent of the holding company.

Audit Results

Causes of Failure and Material Loss

Mutual Bank’s Board and management failed to provide the necessary oversight to effectively manage the
risks associated with an aggressive growth strategy centered in CRE and ADC lending that included out-
of-area loan participations and brokered loans. This growth, in turn, depended upon increasingly volatile
funding sources, including an extensive reliance on brokered and large time deposits, which became
restricted as economic conditions deteriorated. Overall risks were exacerbated by the bank’s poor loan
underwriting and credit administration and excessive and inappropriate use of interest reserves. In
addition, staffing in key operational areas did not keep pace with the continued growth and complexity of
the institution’s loan portfolio. According to examiners, also contributing to the failure was the bank
President’s considerable influence over the bank’s growth strategy and operations and a compensation
agreement that provided an incentive to pursue increased risk and growth.

Declining earnings, resulting from the deteriorating loan quality in the bank’s portfolio, severely eroded
the institution’s capital. Further evidence to the cause of Mutual Bank’s failure can be seen in certain
financial indicators. Specifically, between the 2007 and 2008 examinations, the bank’s adversely
classified assets increased from $54 million to $300 million; loans related to property foreclosures
increased from $477,000 to $19.2 million, an increase of almost 4,000 percent; and net charge-offs of
   Executive Summary
                                     Material Loss Review of Mutual Bank, Harvey,
                                     Illinois
                                                                                     Report No. MLR-10-021
                                                                                             February 2010

CRE loans increased from $8 million at year-end 2007 to $57 million by year-end 2008. Ultimately, the
IDFPR closed Mutual Bank in July 2009 due to insufficient capital to support the bank’s operations.

The FDIC’s Supervision of Mutual Bank

From May 2004 until the bank failed in July 2009, the FDIC, in conjunction with the IDFPR, provided
ongoing supervision of Mutual Bank through five on-site risk management examinations and four
visitations. The FDIC also conducted offsite reviews and other offsite monitoring activities. Through its
supervisory efforts, the FDIC identified risks in Mutual Bank’s operations and brought these to the
attention of the bank’s Board and management through examination reports and other correspondence.
Such risks included the bank’s significant concentration in CRE and ADC loans, weaknesses in loan
underwriting and credit administration and the limited resources devoted to those functions, and the
bank’s increasing reliance on potentially volatile funding sources. Examiners also reported apparent
violations of regulations and contraventions of interagency policy associated with the institution’s lending
practices. Regulators pursued an enforcement action to correct problems identified in the June 2008
examination. However, earlier and more formal supervisory action may have been warranted as a result
of the May 2007 examination, in light of the bank’s high-risk profile resulting from CRE and ADC
concentrations in a declining real estate market and identified risk management deficiencies.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. However, by the time Mutual Bank’s capital levels fell
below the required thresholds necessary to implement PCA, the bank’s condition had deteriorated to the
point at which the institution could not raise additional capital in the time period necessary to prevent a
liquidity failure, and the bank was subsequently closed on July 31, 2009.

Management Response

After we issued our draft report, we met with management officials to further discuss our results.
Management provided additional information for our consideration, and we revised our report to reflect
this information, as appropriate. On February 26, 2010, the Director, Division of Supervision and
Consumer Protection (DSC), provided a written response to the draft report.

In its response, DSC reiterated the OIG’s conclusions regarding the cause of Mutual Bank’s failure and
cited several supervisory activities, discussed in the report, that were undertaken to address risks at the
institution prior to its failure. DSC also noted that it has issued updated guidance reminding examiners to
take appropriate action when those risks are imprudently managed.
                                Contents
                                                                      Page

Background                                                               2

Causes of Failure and Material Loss                                      2
  Board Oversight and Risk Management                                    3
  CRE and ADC Loan Concentrations                                        7
  Reliance on Non-Core Funding Sources                                   9

The FDIC’s Supervision of Mutual Bank                                   12
   Supervisory History                                                  12
   Supervisory Response to Key Risks                                    15
   Implementation of PCA                                                17

Corporation Comments                                                    19

Appendices
  1. Objectives, Scope, and Methodology                                 20
  2. Glossary of Terms                                                  22
  3. Acronyms                                                           24
  4. Corporation Comments                                               25

Tables
   1. Selected Financial Information for Mutual Bank                     2
   2. Mutual Bank’s ADC Concentrations Compared to Peer Group            9
   3. Mutual Bank’s CRE Concentrations Compared to Peer Group            9
   4. Mutual Bank’s Non-Core Funding Sources                            10
   5. Mutual Bank’s Examination History from May 2004 to April 2009     13
   6. Rating Downgrade Probabilities for Mutual Bank Identified by      14
      Offsite Monitoring

Figures
   1. Composition of Mutual Bank’s Loan Portfolio                        8
   2. Mutual Bank’s Percentage of Brokered Deposits to Total            10
      Deposits Compared to Peer Group
   3. Mutual Bank’s Net Non-Core Funding Dependence Ratio               11
      Compared to Peer Group
Federal Deposit Insurance Corporation                                               Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     February 26, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Mutual Bank, Harvey, Illinois
                                          (Report No. MLR-10-021)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failure of Mutual Bank,
Harvey, Illinois. On July 31, 2009, the Illinois Department of Financial and Professional
Regulation (IDFPR) closed the institution and named the FDIC as receiver. On
August 28, 2009, the FDIC notified the OIG that Mutual Bank’s total assets at closing
were $1.7 billion and the estimated material loss to the Deposit Insurance Fund (DIF)
was $693.8 million. As of December 31, 2009, the estimated loss had decreased to
$656.2 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of the
institution, including implementation of the PCA provisions of section 38 of the FDI Act.
This report presents the FDIC OIG’s analysis of Mutual Bank’s failure and the FDIC’s
efforts to ensure that Mutual Bank’s Board of Directors (Board) and management
operated the bank in a safe and sound manner.
1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
This report does not contain recommendations. Instead, as major causes, trends, and
common characteristics of financial institution failures are identified in our reviews, we
will communicate those to management for its consideration. As resources allow, we
may also conduct more in-depth reviews of specific aspects of the FDIC’s supervision
program and make recommendations, as warranted. Appendix 1 contains details on our
objectives, scope, and methodology; Appendix 2 contains a glossary of terms; and
Appendix 3 contains a list of acronyms. Appendix 4 contains the Corporation’s
comments on this report.


Background
Mutual Bank was a state-chartered, nonmember bank established by the IDFPR and
insured by the FDIC effective December 15, 1962. Mutual Bank was a minority
depository institution, with its main office in Harvey, Illinois, a suburb of Chicago. In
early 2004, Mutual Bank acquired Security Bank of DuPage (Security Bank), Naperville,
Illinois. Mutual Bank maintained 10 branches in Illinois, and one branch each in New
York, New Jersey, and Texas. The institution also operated a small trust department.
The bank specialized in residential and commercial real estate (CRE) loans, including
acquisition, development, and construction (ADC) loans. Mutual Bank was a wholly-
owned subsidiary of First Mutual Bancorp of Illinois, Inc., a one-bank holding company.
The Chairman of the bank and his family controlled 95 percent of the holding company.

Table 1 provides details on Mutual Bank’s financial condition as of March 31, 2009, and
for the 4 preceding calendar years.

Table 1: Selected Financial Information for Mutual Bank
Financial Measure                    2005           2006           2007       2008       2009*
Total Assets ($000s)                898,633     1,169,229     1,523,264      1,693,167   1,654,211
Total Loans ($000s)                 729,729       908,623     1,142,740      1,404,635   1,351,618
Total Deposits ($000s)              803,102     1,048,641     1,381,317      1,566,311   1,581,860
Total Brokered Deposits ($000s)     291,530       278,125       337,599        530,560     512,496
Brokered Deposits/Total             36.30%        26.52%        24.44%         33.87%      32.40%
Deposits
Net Income (Loss) ($000s)            10,002          20,671         16,109    (65,621)    (57,463)
Source: Uniform Bank Performance Reports (UBPR) for Mutual Bank.
*March 31, 2009



Causes of Failure and Material Loss
Mutual Bank’s Board and management failed to provide the necessary oversight to
effectively manage the risks associated with an aggressive growth strategy centered in
CRE and ADC lending that included out-of-area loan participations and brokered loans.
This growth, in turn, depended upon increasingly volatile funding sources, including an
extensive reliance on brokered and large time deposits, which became restricted as
economic conditions deteriorated. Overall risks were exacerbated by the bank’s poor


                                                2
loan underwriting and credit administration and excessive and inappropriate use of
interest reserves. In addition, staffing in key operational areas did not keep pace with the
continued growth and complexity of the institution’s loan portfolio. According to
examiners, also contributing to the failure was the bank President’s considerable
influence over the bank’s growth strategy and operations and a compensation agreement
that provided an incentive to pursue increased risk and growth.

Declining earnings, resulting from the deteriorating loan quality in the bank’s portfolio,
severely eroded the institution’s capital. Further evidence to the cause of Mutual Bank’s
failure can be seen in certain financial indicators. Specifically, between the 2007 and
2008 examinations, the bank’s adversely classified assets increased from $54 million to
$300 million; loans related to property foreclosures increased from $477,000 to
$19.2 million, an increase of almost 4,000 percent; and net charge-offs of CRE loans
increased from $8 million at year-end 2007 to $57 million by year-end 2008. Ultimately,
the IDFPR closed Mutual Bank in July 2009 due to insufficient capital to support the
bank’s operations.

Board Oversight and Risk Management

According to the DSC Risk Management Manual of Examination Policies (Examination
Manual), the quality of management is probably the single most important element in the
successful operation of a bank. The Board formulates sound policies and objectives for
the bank, and provides for the effective supervision of its affairs and promotion of its
welfare. The primary responsibility of senior management is to implement the Board’s
policies and objectives in carrying out the bank’s day-to-day operations.

Mutual Bank’s Board and management failed to implement risk management, loan
underwriting, credit administration, and risk monitoring practices commensurate with the
bank’s growth, funding strategy, and complexity. These weaknesses were exacerbated by
insufficient staffing and the bank President’s influence over operations and personal
compensation plan.

Risk Management Practices

Mutual Bank’s growth in CRE loans, and to a lesser degree, ADC, began in 2004 and
continued into 2008 despite declining real estate prices in the bank’s market areas.
According to FDIC officials, many of the strategic credit decisions made by Mutual
Bank’s senior management appeared to have been made with an excessive emphasis on
growth and earnings. In addition, management engaged loan brokers who brought out-
of-area deals to the bank that were poorly underwritten and had high-risk characteristics.
These deals included hospitality (hotel/motel) and gasoline/convenience store loans in the
California, Florida, New York, New Jersey, Maryland, and Texas markets.

From 2004 to 2007, Mutual Bank’s management did not sufficiently monitor credit
concentrations, effectively identify problem credits in credit reviews, or correct
weaknesses in credit underwriting, which included inaccurate cash flow calculations,
incomplete loan presentations, and inadequate overdraft procedures.


                                             3
Financial Institution Letter (FIL)104-2006, entitled, Commercial Real Estate Lending
Joint Guidance, provides a risk management framework that institutions should
implement to effectively identify, measure, monitor, and control concentration risk. That
framework includes effective oversight by bank management, including the Board and
senior executives; portfolio stress testing and sensitivity analysis; sound loan
underwriting and administration; and portfolio management practices.

Loan Underwriting and Credit Administration Practices

Mutual Bank traditionally concentrated its loan portfolio in the hospitality and
gasoline/convenience store industries. Rapid loan growth from 2004 through 2008
continued to focus on these industries, and expanded into new geographic markets as a
result of loan participations purchased in California, Florida, and Texas and brokered
ADC loans in New York, New Jersey, and Maryland. Mutual Bank management
considered these credits more as investments than loans, as well as a means to achieve
higher yields, and relied on the brokers of these loans for overall control and monitoring.

According to the Examination Manual, institutions purchasing a loan participation must
make a thorough, independent evaluation of the transaction and risks involved before
committing any funds. Institutions should also apply the same standard of prudence,
credit assessment, approval criteria, and “in-house” limits that would be employed if the
purchasing organization were originating the loan.

The following are examiner comments regarding Mutual Bank’s weaknesses in the
bank’s loan underwriting and credit administration – including those involving
participations – in Reports of Examination (ROE) from 2004 to 2008.

•   Loan participations contributed to inconsistencies in credit administration, due to the
    increased loan volume, and further exacerbated existing loan underwriting and credit
    administration weaknesses.

•   Global financial analyses were not consistently completed on all large borrowing
    relationships. Also, borrower equity contributions noted in the loan presentations
    were not always achieved or obtained as presented and approved, and sources of
    borrowers’ equity were not always documented and verified.

•   Loan presentations submitted to the bank’s Loan Committee did not always contain
    critical information necessary for members to make an informed decision on certain
    credits. In some instances, critical weaknesses or deficiencies were excluded from
    loan presentations, which, if known to voting parties, could have greatly influenced
    their decisions to approve, renew, and/or extend additional credit to borrowers.

•   Mutual Bank’s appraisal review process needed strengthening. Use of a checklist
    with simple "yes" and "no" questions provided little to no narrative on the
    assumptions used or general quality of the appraisal itself. The narrative portions of
    the reviews did not consistently include discussion of the appropriateness of


                                             4
    assumptions used in the appraisals. Further, in some instances, the appraisals were
    not reviewed until after the loan was funded. Finally, examiners noted concerns with
    the appraisal company most commonly used by the bank, including the company’s
    questionable support for comparables, capitalization rates, and final values, and the
    potential lack of objectivity and diversification of appraisal work in general.

•   Interest reserves were used as a primary means of debt repayment. In many
    instances, bank management had also approved the use of bank-funded interest
    reserves on loans where the scheduled interest and principal payments should have
    been the responsibility of the borrower. Further, examiners noted that the overall risk
    level in the portfolio was heightened by the significant volume of loans granted with
    interest reserves, and numerous credits had been renewed with interest reserves being
    replenished from new monies advanced. Specifically, Mutual Bank:

       o funded interest reserves to service loans or renewals for real estate with no
         immediate plans for construction and/or development;
       o used interest reserves to service loan renewals on construction projects that
         had experienced cost overruns or were not being paid in accordance with the
         original construction loan agreement; and
       o used interest reserves to service loans secured by income-producing rental
         properties (residential or commercial) in place of normal amortizing loan
         terms.

•   Although interest reserves may be acceptable under certain conditions, the
    inappropriate application of this practice served to mask problems within individual
    projects, minimizing past-due ratios, and potentially exposing the bank to additional
    credit losses. Management did not maintain a formal monitoring system to track
    interest reserve balances nor implement any credit risk management practices to
    identify when loan projects were not performing as expected. Without any formal
    tracking mechanisms in place to properly monitor the use of interest reserves, the true
    risk exposure resulting from this practice was unknown.

•   Mutual Bank’s Loan Policy was silent regarding the use of interest reserves and did
    not provide guidelines for identifying problem loans, granting liberal credit terms and
    conditions, limiting the extension of unsecured loans to fund interest payments on
    other notes, and eliminating the ability to extend new money based on old appraisals
    when the market environment has changed significantly.

•   The Loan Policy should have provided guidance regarding the acceptable usage of
    interest reserves, to include (1) eligible and ineligible loan types and purposes,
    (2) minimum collateral coverage requirements, (3) required repayment capacity of the
    obligor outside of the interest reserve, (4) procedures for the renewal of loans with
    interest reserves, and (5) guidelines for decisions to terminate interest reserves and/or
    the capitalization of interest.




                                              5
Risk Monitoring Systems

Examiners also identified the following weaknesses in Mutual Bank’s risk monitoring
systems.

•   The bank’s internal loan-rating system did not recognize a large number of credit
    rating downgrades despite the presence of higher-risk exposure and payment problem
    indicators. As a result of the 2008 examination loan review, there were 46 individual
    loan downgrades, based solely on loans sampled by examiners. Multiple adverse risk
    factors were identified during the loan review, with little or no action taken by bank
    management toward modifying risk ratings or alerting senior management of the
    changing risk condition of a credit. Significant adverse risk factors included timing
    delays in completing construction projects, recapitalization of interest reserves
    without completion of a proper credit analysis, failure to document the required
    equity contribution of borrowers, lagging sales/actual closings within development
    projects, and improper repayment structures/timelines.

•   Mutual Bank’s Watch List3 reporting system did not adequately identify factors that
    caused the weakening of credits or collection efforts. Consequently, the reporting
    system lacked sufficient monitoring information related to the (1) estimated
    completion costs in relation to remaining funding availability, (2) summary of the
    interest reserve position, (3) sales activity with comparisons to original projections,
    and (4) borrower and/or guarantor support need and availability.

•   Loans with loan-to-value (LTV) ratios in excess of the supervisory limits were not
    always identified by management as exceptions or reported to the Board. In some
    cases, the failure to identify these exceptions was due to the reliance on appraised
    value instead of purchase price on acquisition loans (especially on out-of-area
    participation loans), the recapitalization of interest reserves with corresponding
    increases in LTV, and the general lack of oversight of the provisions of this
    regulation. Examiners considered the overall volume of LTV exceptions to be
    excessive and demonstrative of the heightened risk in the portfolio.

Staffing Levels to Support Asset Growth

Examiners also cited limited staffing in key support positions as a contributing factor to
the deterioration in asset quality and identified loan administration weaknesses within the
institution. During the 2006 examination, examiners found that the risk management
systems had not kept pace with the bank’s asset growth, credit administration weaknesses
were more pronounced as a result of this loan growth, and there had been no
corresponding increase in staffing to address the bank’s growth. Two years later, at the
time of the 2008 examination, management practices and staffing were again found to be
unacceptable relative to the institution’s size, complexity, and risk profile.


3
 A Watch List is a detailed loan report that represents the bank’s internal grading or assessment of quality
of its loan portfolio.


                                                      6
Bank management had traditionally operated with limited staffing within the loan
department. Branch staffing was limited to one loan officer (with no lending authority)
per branch, which severely restricted the ability to adequately monitor collateral or the
status of ADC-type credits, particularly for out-of-area loans. Given the size of the loan
portfolio, the high-risk and administratively-intensive nature of originated credits, and the
limited number of loan officer positions, examiners were alarmed that a formalized credit
analyst or risk management department did not exist within the loan operations area.

Bank President’s Influence and Compensation

The 2008 examination report stated that Mutual Bank’s President exerted a great deal of
influence and control over all facets of bank operations and was the driving force behind
the bank’s expansion into New York, New Jersey, and Texas. According to the report,
many of the high-risk loan deals originated by the bank were directly tied to the
President. The bank’s Executive Vice President told examiners that the President
frequently provided borrower information to the loan officers with orders that certain
loan deals had to be funded, despite the inherent risks associated with them. Further, the
Executive Vice President stated that it was then up to the lending staff to find a way to
make the deals work.

According to FDIC management officials and examiners, the structure of the President’s
employment contracts provided an incentive to pursue increased risk and growth in the
loan portfolio. In 2008, the Board approved and entered into a new 10-year employment
contract with the bank President to replace the previous 10-year employment contract that
had expired at the end of 2007. The examiners considered the compensation agreement
to be inappropriate because the bonus structure was based solely upon the return on assets
of the bank, with no controls or limitations related to other key factors, such as asset
quality, loan portfolio performance, capital, liquidity, or interest rate risk.

CRE and ADC Loan Concentrations

Mutual Bank’s decision to concentrate in CRE and ADC loans was a principal factor
leading to the bank's poor financial condition and subsequent failure. Deficient oversight
of its high CRE and ADC loan concentrations negatively impacted the bank’s ability to
effectively manage operations in a declining economic environment. Asset growth rates
were in excess of 30 percent annually, peaking at nearly 93 percent in 2004, as a result of
Mutual Bank’s acquisition of Security Bank. As of December 31, 2003, Security Bank
had assets totaling $122 million. Further, asset growth was not limited to the bank’s
primary market, as growth in later years included significant lending in the Texas, New
York, and New Jersey markets. Overall, Mutual Bank’s growth resulted in
concentrations of high-risk CRE and ADC loans, including to individuals and companies
in economically-sensitive industries such as hospitality and gasoline/convenience stores.

Figure 1 illustrates the general composition and growth of Mutual Bank’s loan portfolio
in the years preceding the institution’s failure. Total concentrations of CRE and ADC
loans were significant – ranging from 72 percent to 91 percent of gross loans and leases
from 2005 to 2009.


                                              7
 Figure 1: Composition of Mutual Bank’s Loan Portfolio


                                       $1,600       All Other Loans                              $1,407
                                                    Other CRE Loans*                                       $1,353
                                       $1,400                                                  $126
                                                    ADC Loans                                             $118
                                                                                  $1,145
                                       $1,200
                                                                                 $113
   Gross Loans and Leases (Millions)




                                                                      $911
                                       $1,000
                                                     $731       $89
                                                                                               $962
                                        $800                                                              $940

                                                    $205                         $753
                                        $600                    $556


                                        $400        $345


                                        $200                    $266             $279          $319       $295
                                                    $181

                                          $0
                                                Dec-2005    Dec-2006         Dec-2007      Dec-2008   Mar-2009
                                                                        Period Ended


Source: OIG analysis of UBPRs and Consolidated Reports of Condition and Income (Call Reports) for
Mutual Bank.
* Includes owner-occupied CRE.

Joint guidance issued by the FDIC, the Office of the Comptroller of the Currency, and the
Board of Governors of the Federal Reserve System, entitled, Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices, dated
December 12, 2006, recognizes that there are substantial risks posed by CRE and ADC
concentrations. Such risks include unanticipated earnings and capital volatility during an
adverse downturn in the real estate market. The December 2006 guidance defines
institutions with significant CRE concentrations as those reporting loans for construction,
land and development, and other land (i.e., ADC) representing 100 percent or more of
total capital; or institutions reporting total CRE loans representing 300 percent or more of
total capital, where the outstanding balance of CRE has increased by 50 percent or more
during the prior 36 months. According to the guidance, an institution that has
experienced rapid growth in CRE lending, has notable exposure to a specific type of
CRE, or is approaching or exceeds the previous criteria may be identified for further
supervisory analysis of the level and nature of its CRE concentration risk.

As shown in Table 2, Mutual Bank’s concentrations in ADC loans consistently
represented more than 100 percent of Total Capital from 2005 to 2009, exceeding the
criteria for identifying institutions that may have warranted further supervisory analysis
once the FDIC’s guidance took effect in December 2006. In addition, ADC loans as a


                                                                             8
percent of the bank’s total capital and total loans were significantly above its peer group
averages during the same period.

Table 2: Mutual Bank’s ADC Concentrations Compared to Peer Group
                         ADC Loans as a                               ADC Loans as a
                      Percent of Total Capital                     Percent of Total Loans
   Period
                                            Mutual                                      Mutual
   Ended                       Peer                            Mutual       Peer
               Mutual Bank                   Bank                                       Bank
                              Group                            Bank        Group
                                          Percentile                                  Percentile
 Dec 2005         193%           104%             82             25%        14%           80
 Dec 2006         224%           136%             79             29%        18%           79
 Dec 2007         209%           147%             73             24%        19%           68
 Dec 2008         271%           139%             86             23%        17%           72
 Mar 2009         819%           129%             99             22%        16%           72
Source: UBPR data for Mutual Bank.

Mutual Bank’s CRE concentrations in 2007, 2008, and 2009 also exceeded the levels that
may be identified for further supervisory analysis, as shown in Table 3. In addition, CRE
loans as a percent of the bank’s total capital and total loans ranked significantly above the
bank’s peer group averages from 2007 to 2009 – years in which the guidance was in
effect.

Table 3: Mutual Bank’s CRE Concentrations Compared to Peer Group*
                         CRE Loans as a                               CRE Loans as a
                      Percent of Total Capital                     Percent of Total Loans
   Period
                                            Mutual                                      Mutual
   Ended                       Peer                            Mutual       Peer
               Mutual Bank                   Bank                                       Bank
                              Group                            Bank        Group
                                          Percentile                                  Percentile
 Dec 2007          415%          302%             75             49%        39%           71
 Dec 2008          576%          307%             92             48%        38%           72
 Mar 2009         1,855%         295%             99             50%        38%           75
Source: UBPR data for Mutual Bank.
* Percentages for Mutual Bank and peer group exclude owner-occupied CRE.

In the May 2007 examination, examiners identified concentrations of credit in CRE loans
totaling 802 percent of Tier 1 Capital. Examiners also singled-out for attention the
bank’s commercial owner-occupied loans and credits extended to the hospitality industry,
representing 198 percent and 149 percent of Tier 1 Capital, respectively. Mutual Bank’s
CRE and ADC loan concentrations at the December 2007 and subsequent June 2008
examinations continued to exceed the 300 percent and 100 percent supervisory criteria,
respectively, as well as the bank’s peer group averages. As reported in the June 2008
examination, total CRE lending (including ADC) represented 1,018 percent of total risk-
based capital and was in need of close management attention.

Reliance on Non-Core Funding Sources

In the years preceding its failure, Mutual Bank became increasingly dependent on non-
core funding sources to support loan growth and maintain adequate liquidity. When
properly managed, such funding sources offer important benefits, such as ready access to


                                                 9
funding in national markets when core deposit growth in local markets lags planned asset
growth. However, non-core funding sources also present potential risks, such as higher
costs and increased volatility. Placing heavy reliance on potentially volatile funding
sources to support asset growth is risky because access to these funds may become
limited during distressed financial or economic conditions. Under such circumstances,
institutions could be required to sell assets at a loss in order to fund deposit withdrawals
and other liquidity needs.

Historically, Mutual Bank relied heavily on potentially volatile funding sources,
particularly promotional, higher-priced Certificates of Deposit (CD), brokered deposits,
and Federal Home Loan Bank (FHLB) borrowings to support loan growth. Table 4
provides details on the bank’s non-core funding sources during the years prior to its
failure.

Table 4: Mutual Bank’s Non-Core Funding Sources
                                            Time Deposits
                                                             Brokered           FHLB
                                             $100,000 or
   Period Ended                                              Deposits        Borrowings
                                                More
                                                              ($000s)          ($000s)
                                               ($000s)
 December 2005                                    278,432        291,530               5,800
 December 2006                                    408,035        278,125               5,800
 December 2007                                    590,812        337,599               5,800
 December 2008                                    345,790        530,560              15,300
 March 2009                                       322,721        512,496              15,300
 Source: UBPR data for Mutual Bank.

In addition, Figure 2 illustrates that Mutual Bank’s use of brokered deposits was
historically higher than its peer group – levels that placed the bank in the 90th to 97th
percentile of its peer group.

Figure 2: Mutual Bank’s Percentage of Brokered Deposits to Total Deposits
          Compared to Peer Group

                                 50
     Percent Brokered Deposits




                                 40
                                       32
                                                                              27                36
                                                     34
                                 30                               24                                    Peer Group
                                                                                                        Average
                                 20                                                                     Mutual Bank
                                                                               10                9
                                                                  7
                                 10                   5
                                        3
                                 0
                                      Dec-05        Dec-06      Dec-07       Dec-08            Mar-09
                                                             Period Ending

 Source: UBPR data for Mutual Bank.




                                                                 10
Further, Mutual Bank’s net non-core funding dependence ratio4 consistently outpaced its
peer group, as illustrated in Figure 3. From December 2005 until March 2009, the
institution’s net non-core funding dependence ratio ranged from the 78th to 92nd
percentile of its peer group.

Figure 3: Mutual Bank’s Net Non-Core Funding Dependence Ratio Compared to
          Peer Group



                                    60
     Percent Net Non-Core Funding




                                                                                49       47
                                    50             45       43
                                                                       40
                                    40                                          35
                                                                                                 Peer Group
                                          27                           29                33      Average
                                                            27                                   Mutual Bank
                                    30
                                                   22
                                          21
                                    20


                                    10


                                    0
                                         Dec-04   Dec-05   Dec-06     Dec-07   Dec-08   Mar-09
                                                           Period Ending

Source: UBPR for Mutual Bank.

During the June 2008 examination, examiners determined that Mutual Bank’s liquidity
levels, contingency liquidity planning, and existing funds management practices were
inadequate and insufficient to support the bank’s operations. Brokered deposits and high-
rate CDs totaled $1.2 billion, or 84 percent of total bank deposits. CDs over $100,000
represented approximately 53 percent of total CDs, which further exposed the bank to
volatility risk. Additionally, the bank had approximately $123 million in high-rate CDs
that were scheduled to mature by the end of 2008. Deteriorating assets and decreasing
capital put stress and restrictions on the types of brokered deposit rates the bank could
offer when trying to maintain or secure additional funding.

By June 2008, the bank had fallen to Adequately Capitalized,5 thereby negatively
impacting the bank’s major funding sources of brokered deposits and high rate CDs.
Further, given the severity of the bank’s asset quality concerns and capital levels,
4
  The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress.
5
  Institutions pursuant to Section 29 of the Federal Deposit Insurance Act are not allowed to utilize
brokered funds without obtaining a brokered deposit waiver. Part 337 of the FDIC's Rules and Regulations
also prohibits financial institutions in troubled condition and/or Adequately Capitalized from offering
deposit rates in excess of 75 basis points above area market rates for similar type deposits.



                                                                 11
regulators were concerned that large depositors would begin fleeing to safer investments
and of the strong probability that existing unsecured borrowing lines would be reduced or
restricted.


The FDIC’s Supervision of Mutual Bank
From May 2004 until the bank failed in July 2009, the FDIC, in conjunction with the
IDFPR, provided ongoing supervision of Mutual Bank through five on-site risk
management examinations and four visitations. The FDIC also conducted offsite reviews
and other offsite monitoring activities. Through its supervisory efforts, the FDIC
identified risks in Mutual Bank’s operations and brought these to the attention of the
bank’s Board and management through examination reports and other correspondence.
Such risks included the bank’s significant concentration in CRE and ADC loans,
weaknesses in loan underwriting and credit administration and the limited resources
devoted to those functions, and the bank’s increasing reliance on potentially volatile
funding sources. Examiners also reported apparent violations of regulations and
contraventions of interagency policy associated with the institution’s lending practices.
Regulators pursued an enforcement action to correct problems identified in the June 2008
examination. However, earlier and more formal supervisory action may have been
warranted as a result of the May 2007 examination, in light of the bank’s high-risk profile
resulting from CRE and ADC concentrations in a declining real estate market and
identified risk management deficiencies.

Supervisory History

The FDIC and the IDFPR conducted examinations and visitations of Mutual Bank from
May 2004 to April 2009, as summarized in Table 5 on the next page.




                                            12
Table 5: Mutual Bank’s Examination History from May 2004 to April 2009
                                             Supervisory
     Examination
                              Agency           Ratings                  Supervisory Action
      Start Date
                                              (UFIRS)*
 May 7, 2004               FDIC             222222/2           N/A
 May 2, 2005               IDFPR            222222/2           N/A
 May 30, 2006              FDIC             222222/2           N/A
                           FDIC                                The purpose of this visitation was to
 January 29, 2007                           N/A
                           Visitation                          assess asset quality.
 May 29, 2007              Joint            232222/2           N/A
                           FDIC                                The purpose of this visitation was to
 December 3, 2007                           N/A
                           Visitation                          assess asset quality.
                                                               Issued a Cease and Desist Order
 June 2, 2008              Joint            454554/4
                                                               (C&D).
                                                               This purpose of this visitation was to
                           Joint
 January 5, 2009                            555555/5           assess asset quality and liquidity, and
                           Visitation
                                                               resulted in downgraded ratings.
                           Joint                               The purpose of the visit was to verify
 April 15, 2009                             N/A
                           Visitation                          capital injections.
Source: The FDIC’s Virtual Supervisory Information on the Net and ROEs for Mutual Bank.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.

Visitations

In addition to risk management examinations, the FDIC and the IDFPR conducted four
visitations at Mutual Bank.

January 29, 2007. The purpose of this FDIC visitation was to (1) obtain preliminary
balances for nonperforming loans at year-end 2006 and (2) assess overall asset quality by
reviewing nonperforming loans of $10 million or greater. A substantial spike in
noncurrent loans at September 2006 raised concern and prompted the visitation. Asset
quality had deteriorated since the May 2006 examination. Examiners concluded that,
given that bank management had action plans in place and anticipated that many of the
problem credits would be resolved within 3 to 6 months, an accelerated asset quality
review was not necessary prior to the next scheduled joint examination.

December 3, 2007. The purpose of this FDIC visitation was to (1) assess the trend in
asset quality since the May 2007 joint examination by reviewing nonperforming loans
and credit relationships of $10 million or greater and (2) determine if the examination
schedule should be accelerated. According to the visitation report, despite all of the
credit quality problems, one substantial mitigating factor was the Chairman of the
Board’s unwavering financial support for the institution – he had contributed $10 million
in capital in mid-November 2007. Ultimately, although the visitation identified certain
risks in the loan portfolio, such as the Board raising the concentration of credit limits for
hotels/motels from 300 to 400 percent of total risk-based capital and out-of-area lending,


                                                    13
an accelerated asset quality review was deemed unnecessary because a joint examination
was scheduled for June 2008.

January 5, 2009. The purpose of this joint visitation was to evaluate the status of asset
quality and liquidity in response to the C&D issued as a result of the June 2008
examination. The scope of the visitation was expanded, however, due to severe
deterioration in the bank’s overall condition. Consequently, Mutual Bank’s composite
rating was downgraded to a "5" to reflect its elevated risk profile and troubled condition,
which had deteriorated to the point where the future viability of the institution was in
question. As a result, as of December 31, 2008, the institution was considered to be
Undercapitalized for PCA purposes.

April 15, 2009. The purpose of this joint visitation was to verify capital injections,
totaling $6.6 million made at the end of the first quarter of 2009.

Offsite Monitoring

The FDIC conducted nine offsite reviews of Mutual Bank between December 2004 and
June 2008. As shown in Table 6, the offsite reviews showed that the probability of
downgrades in Mutual Bank’s asset quality and management component ratings and
overall composite ratings increased over time.

Table 6: Rating Downgrade Probabilities for Mutual Bank Identified by Offsite
         Monitoring
Probability of a        Dec     Mar      Sept         Mar    Jun    Sept   Dec    Mar     Jun
Rating Downgrade        2004    2005     2006         2007   2007   2007   2007   2008    2008
Asset Quality           51%     40%      63%          39%    N/A    N/A    N/A    61%     100%
Management              38%     N/A      N/A          27%    58%    42%    67%    82%     99%
Composite Rating        28%     N/A      27%          22%    48%    39%    62%    84%     100%
Source: OIG analysis of Offsite Monitoring Reviews.

In at least one case, as described above, the offsite monitoring resulted in an on-site
visitation.

Formal Corrective Action

At the close of the June 2008 examination, the FDIC and the IDFPR informed Mutual
Bank management that the bank would be placed under a C&D because its overall
condition warranted a corrective program to stabilize the institution and effect necessary
improvements. The bank’s overall condition was deemed unsatisfactory due to the
following conditions:

 •    Risk management practices were unacceptable relative to the institution's size,
      complexity, and risk profile. The significant and rapid deterioration in asset quality,
      primarily located within the loan portfolio, had crippled earnings, reduced capital
      levels, and exposed the bank to excessive amounts of risk.




                                                      14
 •   Capital levels no longer provided adequate protection given the institution's existing
     risk profile.

 •   The bank’s Board and senior management needed to significantly improve risk
     monitoring and reporting practices and take steps to ensure that adequate staffing
     existed to effectively manage operations.

 •   Earnings had been depleted and profitability in 2008 was unlikely.

 •   Liquidity risk was high, given the extreme volatility and high-rate nature of the
     bank’s primary funding sources.

 •   Sensitivity to market risk was unacceptable, as the balance sheet was in a state of
     flux and current earnings and capital levels did not allow for any degree of market
     risk.

Mutual Bank stipulated to the C&D in December 2008 and it became effective on
January 9, 2009. The C&D contained 20 provisions that, among other things, required
the bank to submit and adhere to an acceptable capital plan, without specifying a capital
level to be maintained, and reduce its reliance on non-core funding. According to FDIC
officials, this approach – that is, not specifying a capital requirement that would have put
the bank into an Adequately Capitalized capital category – allowed the bank to remain
Well Capitalized for PCA purposes and therefore fund itself while transitioning away
from high-cost and brokered deposit sources.

Supervisory Response to Key Risks

Subsequent to Mutual Bank’s acquisition of Security Bank in 2004, FDIC and IDFPR
examiners identified concerns and made recommendations related to the risks associated
with Mutual Bank’s CRE loan concentrations, risk management practices, and liquidity
management. The following provides a brief synopsis of examination efforts related to
those risks from 2004 to 2008.

May 2004, May 2005, and May 2006 Examinations

Examiners concluded in these examinations that the overall financial condition of the
bank was satisfactory or acceptable – with Mutual Bank receiving component and
composite “2” ratings. However, examination reports noted the level of concentrations in
the hotel/motel and gas station/convenience store industries, and the higher level of risk
in the portfolio resulting from the concentrations. Further, examiners noted loan
underwriting and credit administration weaknesses and risk management systems that had
not kept pace with the record asset growth experienced by the bank. With respect to
Mutual Bank’s use of non-core funding sources to fund growth and operations, examiners
repeatedly expressed concerns that the bank relied heavily on potentially volatile
liabilities, particularly promotional CDs priced at the middle to near top local market
rates, brokered deposits, and FHLB borrowings. In addition, in the 2004 and 2006


                                             15
reports, examiners recommended that the bank strengthen the monitoring of its funding
sources in order to adequately anticipate sources and uses of funds. Notwithstanding
these persistent concerns expressed by the examiners, the bank continued to receive
satisfactory ratings.

May 2007 Examination

Although the May 2007 examination considered the overall condition of Mutual Bank to
be satisfactory, examiners downgraded the bank’s asset quality component rating to a
“3,” which indicated that asset quality or credit administration practices were less than
satisfactory. Specifically, the examination report noted that the level of adversely
classified items had increased considerably since the last examination. The report also
expressed concern with concentrations of credits, reminded bank management of the
basic tenet of risk diversification, and noted that underwriting and credit administration
practices needed enhancement.

Referencing Mutual Bank’s portfolio risk going back to 2004, the 2007 examination
report stated:

       The composition of the loan portfolio lends itself to a higher degree of portfolio
       risk. Since 2004, management has embarked on an aggressive growth plan. This
       growth has resulted in a substantial amount of out-of-area lending, which is
       inherently more difficult to monitor, as well as continued lending to the
       hospitality and gas station/convenience store sectors.

This statement indicates that the regulators were well aware of the risk inherent in Mutual
Bank’s loan portfolio.

The FDIC and the IDFPR also expressed their concerns regarding the bank’s risk in a
July 2007 report transmittal letter to Mutual Bank’s Board, which stated that although the
report indicated the bank’s condition was satisfactory, the Board’s attention was directed
to concerns identified during the examination. The letter specifically noted that the loan
portfolio contained a heightened level of risk and that many of the extensions of credit
were outside the bank’s market area.

Although there was no specific mention of Mutual Bank’s non-core funding in the July
2007 transmittal letter, the examination report noted a continued reliance on non-core
liabilities to fund longer-term assets. The report concluded, however, that the bank’s
liquidity position was acceptable and within policy guidelines.

As a result of this examination, the FDIC and the IDFPR requested that the Board address
the examination concerns and “. . . provide detailed information and actions taken
regarding recommendations for underwriting and credit administration, monitoring of
concentrations of credit, the Allowance for Loan and Lease Loss methodology, and Bank
Secrecy Act procedures.” However, the examination did not result in either a formal or
informal supervisory action.



                                            16
June 2008 Examination

At the end of this examination, Mutual Bank’s financial condition was considered
unsatisfactory and it was downgraded to a composite “4” rating – a significant reduction
from the previous examination’s “2” rating. Further, each of the six risk management
components were downgraded to a “4” or a “5,” indicating the regulators’ level of
concern. Overall, the FDIC and the IDFPR deemed the bank’s risk management
practices to be unacceptable relative to the institution’s size, complexity, and risk profile.
The significant and rapid deterioration in asset quality, primarily located within the loan
portfolio, had crippled earnings, reduced capital levels, and exposed the bank to
excessive amounts of risk.

Given the institution’s existing risk profile, capital levels no longer provided adequate
protection. Earnings had been depleted and profitability in 2008 was deemed unlikely.
Examiners considered the bank’s liquidity risk to be high, given the extreme volatility
and high-rate nature of the bank’s primary funding sources. As discussed previously,
Mutual Bank stipulated to a C&D that became effective on January 9, 2009, which,
among other things, required the bank to submit and adhere to an acceptable capital plan.

Although Mutual Bank curtailed its CRE lending in September 2008, this action was too
late to keep the bank viable, as evidenced by the fact that the majority of its adversely
classified assets and charge-offs were related to its existing CRE loan portfolio. In
hindsight, earlier and additional supervisory action in the form of a management
component downgrade to a “3,” or a Memorandum of Understanding focused on risks
associated with Mutual Bank’s higher-risk profile and risk management weaknesses, may
have been prudent following the May 2007 examination. Such actions may have
persuaded Mutual Bank’s Board and management to take more timely and meaningful
action to address its increasing risk profile, and possibly mitigated losses to the DIF.
According to FDIC officials, however, mitigating factors at the time of the examination,
including prompt and acceptable corrective assurances from bank management and the
overall satisfactory condition of the institution, precluded such actions.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. Based on supervisory actions taken with respect to Mutual Bank, the FDIC
implemented applicable PCA provisions of section 38 of the FDI Act in the manner and
timeframe required. However, by the time the FDIC was required to implement the PCA
provisions, Mutual Bank had already been informed that a C&D was in process that
required the bank to develop a plan to significantly improve its capital position.

On three occasions from June 2004 through June 2008, Mutual Bank’s PCA category
briefly fell to Adequately Capitalized, based on quarter-end Call Report information, and
the FDIC notified the bank and implemented restrictions regarding the bank’s acceptance,


                                              17
renewal, or rolling-over of any brokered deposits. However, in each instance, Mutual
Bank management and/or its holding company injected sufficient capital in the bank to
return it to a Well Capitalized position.

On November 7, 2008, Mutual Bank submitted a $47 million funding application under
the U.S. Department of Treasury’s Troubled Asset Relief Program (TARP). The bank
subsequently withdrew its application on March 2, 2009, after being informed by the
FDIC that the bank’s application did not meet the standards for approval for TARP
funding.

On February 3, 2009, the FDIC formally notified Mutual Bank that based on the results
of a January 5, 2009 joint visitation, the institution was considered Undercapitalized for
purposes of Part 325. The notification included a reminder that the institution was
subject to certain restrictions and requirements defined under section 38, including
submission of a capital restoration plan. In April 2009, Mutual Bank submitted a capital
plan but it was deemed not acceptable by the regulators.

On February 11, 2009, based on the findings of the January 2009 joint visitation, the
IDFPR presented Mutual Bank with a written Notice of Intent to Take Possession and
Control Pursuant to Section 51 of the Illinois Banking Act. According to the notice, the
IDFPR had determined that the institution was operating with an unacceptable level of
capital protection for its risk profile and required Mutual Bank to increase its Tier 1
Regulatory Leverage Capital Ratio, Tier 1 Risk-Based Regulatory Capital Ratio, and
Total Risk-Based Capital Ratio to not less than 5 percent, 6 percent, and 10 percent,
respectively. Mutual Bank was notified that if it was not successful in performing
satisfactory corrective action by May 12, 2009, the IDFPR would take possession and
control of the bank and its assets.

On June 3, 2009, the FDIC formally notified Mutual Bank that based on internal loss
calculations as of June 2, 2009, the institution was considered Critically Undercapitalized
for purposes of Part 325. The notification included a reminder that the institution was
subject to certain restrictions and requirements defined under section 38, including
submission of a capital restoration plan. As of the June 30, 2009 Call Report, the bank’s
capital ratios were:

           o Total Risk-Based Capital Ratio          1.33 percent
           o Tier 1 Risk-Based Capital Ratio         0.67 percent
           o Tier 1 Leverage Ratio                   0.57 percent

Mutual Bank was unable to develop a viable capital plan and the institution was closed
on July 31, 2009.




                                            18
Corporation Comments
We issued a draft of this report on February 11, 2010. After we issued our draft report,
we met with management officials to further discuss our results. Management provided
additional information for our consideration, and we revised our report to reflect this
information, as appropriate. On February 26, 2010, the Director, DSC, provided a written
response to the draft report. That response is provided in its entirety as Appendix 4 of
this report.

In its response, DSC reiterated the OIG’s conclusions regarding the cause of Mutual
Bank’s failure and cited several supervisory activities, discussed in the report, that were
undertaken to address risks at the institution prior to its failure. DSC also noted that it
has issued updated guidance reminding examiners to take appropriate action when those
risks are imprudently managed.




                                             19
                                                                                 Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which
provides, in general, that if a deposit insurance fund incurs a material loss with respect to
an insured depository institution, the Inspector General of the appropriate federal banking
agency shall prepare a report to that agency reviewing the agency’s supervision of the
institution. The FDI Act requires that the report be completed within 6 months after it
becomes apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the financial institution’s failure
and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
institution, including implementation of the PCA provisions of section 38.

We conducted this performance audit from November 2009 to February 2010, in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Mutual Bank’s operations from May 7,
2004 until its failure on July 31, 2009. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

   •   Analyzed ROEs and visitation reports prepared by FDIC and IDFPR examiners
       from May 7, 2004 to April 15, 2009.

   •   Reviewed the following:

           o Bank data and correspondence maintained at the FDIC’s Chicago
             Regional Office and Chicago Field Office.

           o Reports prepared by the Division of Resolutions and Receiverships (DRR)
             and DSC relating to the bank’s closure. We also reviewed available bank
             records maintained by DRR in Dallas, Texas, for information that would
             provide insight into the bank's failure.

           o Pertinent DSC policies and procedures.

   •   Interviewed and/or contacted the following FDIC officials:



                                             20
                                                                                  Appendix 1

                   Objectives, Scope, and Methodology

           o   DSC management in Washington, D.C., and the Chicago Regional Office.

           o   DRR officials from the Dallas Regional Office.

           o   FDIC examiners from the Chicago Regional Office and Chicago Field
               Office who participated in examinations or reviews of examinations of
               Mutual Bank.

   •   Interviewed officials from the IDFPR to discuss the historical perspective of the
       institution, its examinations, and other activities regarding the state's supervision
       of the bank.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, ROEs,
and interviews of examiners to understand Mutual Bank’s management controls
pertaining to causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that was used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             21
                                                                                    Appendix 2

                               Glossary of Terms

      Term                                          Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and
Losses (ALLL)       lease portfolio (including all binding commitments to lend). To the
                    extent not provided for in a separate liability account, the ALLL should
                    also be sufficient to absorb estimated loan losses associated with off-
                    balance sheet loan instruments such as standby letters of credit.

Call Report         Consolidated Reports of Condition and Income (also known as the Call
                    Report) are reports that are required to be filed by every national bank,
                    state member bank, and insured nonmember bank with the FDIC
                    pursuant to the Federal Deposit Insurance Act. These reports are used to
                    calculate deposit insurance assessments and monitor the condition,
                    performance, and risk profile of individual banks and the banking
                    industry.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound
                    practice or a violation of laws and regulations. A C&D may be
                    terminated when the bank’s condition has significantly improved and the
                    action is no longer needed or the bank has materially complied with its
                    terms.

Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain
                    industry, person, entity, or affiliated group. These assets may, in the
                    aggregate, present a substantial risk to the safety and soundness of the
                    institution.

Memorandum of A Memorandum of Understanding is an informal agreement between the
Understanding institution and the FDIC, which is signed by both parties. The State
(MOU)         Authority may also be party to the agreement. MOUs are designed to
                    address and correct identified weaknesses in an institution’s condition.




                                             22
                                                                                Appendix 2

                            Glossary of Terms



Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)     Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                 of Federal Regulations, section 325.101, et. seq., implements section 38,
                 Prompt Corrective Action, of the FDI Act, 12 United States Code
                 section 1831(o), by establishing a framework for determining capital
                 adequacy and taking supervisory actions against depository institutions
                 that are in an unsafe or unsound condition. The following terms are
                 used to describe capital adequacy: (1) Well Capitalized, (2) Adequately
                 Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized,
                 and (5) Critically Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective
                 action or compliance with the PCA statute with respect to an institution
                 that falls within any of the three categories of undercapitalized
                 institutions.

Troubled Asset   TARP was established under the Emergency Economic Stabilization Act
Relief Program   of 2008, which established the Office of Financial Stability within the
(TARP)           United States Department of the Treasury. Under TARP, Treasury will
                 purchase up to $250 billion of preferred shares from qualifying
                 institutions as part of the Capital Purchase Program.

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial
                 Institutions Examination Council for the use of banking supervisors,
                 bankers, and the general public and is produced quarterly from Call
                 Report data submitted by banks.




                                         23
                                                                        Appendix 3

                           Acronyms

ADC      Acquisition, Development, and Construction

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and
         Sensitivity to Market Risk

CD       Certificate of Deposit

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FHLB     Federal Home Loan Bank

FIL      Financial Institution Letter

IDFPR    Illinois Department of Financial and Professional Regulation

LTV      Loan-to-Value

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institution Rating System




                                  24
                                                                                Appendix 4
                                    Corporation Comments




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                               February 26, 2010

TO:               Stephen Beard
                  Assistant Inspector General for Material Loss Reviews

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          Draft Audit Report Entitled, Material Loss Review of Mutual Bank, Harvey,
                  Illinois (Assignment No. 2009-055)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of Mutual
Bank (MB) which failed on July 31, 2009. This memorandum is the response of the Division of
Supervision and Consumer Protection (DSC) to the OIG’s Draft Report (Report) received on
February 11, 2010.

The Report concludes MB failed due to the Board and management’s aggressive pursuit of loan
growth primarily funded with brokered deposits and large time deposits. MB’s management
decision to concentrate the loan portfolio in commercial real estate (CRE) and acquisition,
development, and construction loans (ADC), its aggressive growth in out-of-area loans and
participations, and its reliance on brokered and large deposits were the principal factors leading
to MB’s deteriorating financial condition and failure. MB’s out-of-area brokered loans in CRE,
overall weak loan administration, and deterioration of local Chicago area real estate markets
resulted in increased delinquencies and non-performing assets. MB was unable to raise
sufficient capital to absorb the loan losses and support operations.

As part of DSC’s supervisory program, from May 2004 through July 2009, the FDIC and the
Illinois Department of Financial and Professional Regulation (IDFPR) jointly and separately
conducted five full-scope examinations and four visitations. The FDIC also conducted offsite
reviews and other offsite monitoring activities. At the May 2007 examination, examiners
downgraded asset quality and noted a heightened risk due to lending outside the local market
area and to economically sensitive industries. At the January 2009 joint visitation, examiners
found that MB had further deteriorated to a level that raised significant regulatory concern and
posed considerable risk, and DSC and IDFPR implemented a formal enforcement action. MB
management was unable to correct the deficiencies, and the deposits were transferred to another
minority owned institution upon MB’s failure.

DSC recognizes that strong supervisory attention is necessary for institutions with high
CRE/ADC concentrations and volatile funding sources, such as MB, and has issued updated
guidance reminding examiners to take appropriate action when those risks are imprudently
managed.

Thank you for the opportunity to review and comment on the Report.


                                                  25
